No.

 

IN THE SUPREME COURT OF THE UNITED STATES

FRANCISCO JAVIER NUNEZ,
|
Petitioner
V.
UNITED STATES OF AMERICA,
Respondent
PROOF OF SERVICE

State of Texas )
County of Midland )

DEPOSITOR, being first duly sworn, deposes and says under oath:

That on September 21, 2020, the Motion for Leave to Proceed In Forma Pauperis, in the
above-entitled case, was deposited in a United States Post Office mail box located in Midland,
Midland County, Texas, with first class postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and within the time allowed for filing said Petition for Writ
of Certiorari;

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

Dated at Midland, Midland County, Texas, this 23 day of September, 2020.

Subscribed and Sworn to before me VA ‘La
this 23 day of September, 2020. Depositor, Steve Hershberger, Attorney

cone ait Ee h Les le oe
Notary Public, in and for the State of Texas

    

2 Meee
1D No. 3498824

   

gi i he ai A Hershberger
WE ommission Expi Expires

 
 
Respectfully submitted,

Steve Hershberger, Attorney at Law
600 No. Marienfeld St., Ste. 1035
Midland, TX 79701

432-570-4014

Attorney for Petitioner

 
